                             Closeout for M99090046

   On June 18, 1999, the complainants1 sent a letter to NSF management2 alleging
that a Program Officer (PO)3 had made comments indicating a racial bias. The
complainants alleged the number of funded PIS of a particular race had been
unfairly reduced by the PO. The PO'S supervisor responded to the complainants.
On August 12, 1999, we received a letter from one of the complainants4 requesting
we respond to their concerns.
   NSF asks PIS to voluntarily complete Form 1225 for statistical purposes when
submitting proposals. Among other statistical information requested, Form 1225
asks PIS identify their race. Using the information provided on those forms, we
reviewed the percentage of PIS funded, by race, from the PO'S Program for the last
10 years to look for evidence of bias. Since the PO was hired to manage the
Program, the funding rate for PIS of the race in question has remained
approximately the same a s before the PO was hired by NSF.
   We informed the complainants and the PO'S supervisor of our analysis and said
the evidence did not support their allegations. This inquiry is closed and no further
action will be taken on this case.

cc: Integrity, IG




   1 (footnote redacted).
   2 (footnote redacted).
   3 (footnote redacted).
   4 (footnote redacted).




                                      Page 1 of 1
